                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




         A proactive review of various conference grants conducted by our office identified two concerns
         regarding an award' to a universitg to support the travel of participants to a conference being
         held in a European count$. Specifically, we had questions about trips to non-European
         locations, including Mexico City and Washington D.C., and a possible violation of the Fly
         America Act due to the use of non-American airlines. The matter was referred to the Office of
         Investigations in November 2003.

        We requested and received additional information and records from the university, and we were
        able to address the issues. First, we were able to determine that the Fly America Act had not
        been violated. There were not any American flag carriers offering direct flights to Hungary;
        furthermore, all of the flights had been made through American flag carriers as required.

        Secondly, through our review we were able to determine that most of the questioned travel was
        in fiutherance of the grant and made with the approval of the NSF Program Officer (P.O.) '. The
        sole issue was the PI'S trip to Mexico. We contacted the universig in July 2004, advising them
        of the results of our review and requesting corrective action with regard to the trip. In August
        2004 we received the university's response6; they agreed with our conclusion that the trip to
        Mexico was not directly related to the grant, and indicated the university would remove all
        related charges7fromthe grant. In October 2004, we verified that the hnds had been returned8.


         Accordingly, this case is closed.




NSF OIG Fom 2 (1 1/02)
                                                                                                      I
